No. 19-793
In the Supreme Court of the United States

INSTITUTE FOR FREE SPEECH, Petitioner,
Vv.

XAVIER BECERRA, Respondent.

CERTIFICATE OF SERVICE

I, Aimee Feinberg, a member of the Bar of this Court, hereby certify that on
January 14, 2020, I caused to be sent by commercial carrier a copy of the attached
letter in the above-entitled case to:

Allen Joseph Dickerson
Institute for Free Speech

1150 Connecticut Avenue, NW
Suite 801

Washington, D.C. 20036

(202) 301-9000

Counsel for Petitioner

Via Federal Express

All parties required to be served have been served.

AIMEE FEINBERG 4

Deputy Solicitor General

California Department of Justice

1300 I Street

Sacramento, CA 95814

(916) 210-6003

Counsel for the Attorney General of California
